WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Cas 4, 19-555
R. Ray Fulmer, Il, Trustee , Fifth Third Equipment Finance Company, et al.

  

 

 

(Petitioner : (Respondent)

TDO NOT INTEND TO FILE A RESPONSE (o the petition for a writ of certiorari unless one is requested
by the Court.

Please cheek the appropriate box

 

O Please enter my appearance as Counsel of Record for all respondents.

 

& There ave multiple respondents, and T do not repre:
appearances

sent ali respondents, Please enter my
Counsel of Record for the following respondent(s):

International Paper Company

   

 

 

S) Tam a member of the Bar of the Supreme Court of the United Slates.

 

 

[2 Tam not presently a imenber of the Bar of this Court. Should a response be requested, the response
will be filed

WBar ineubeys
Wi neubyyey
sina Lover Fue
November 1, 2019
Bruce Buechler

= Mh Ms Mrs. “| Miss
Firm Lowenstein Sandler LLP

   

Date:

(Type or printy Name

 

5 One Lowenstein Drive
Addvess

07068

City & State ROSEland, New Jersey .
vity & State Zip
Phone 973-597-2308 rma Pbuechler@lowenstein.com

 
  
  

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PROSE PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

cc: Whitney A. Davis. Esq. and James E. Smith, Esq
